 U.S. Department of the Interior
 Office of Inspector General




            AUDIT REPORT


IMPLEMENTATION OF RECOMMENDATIONS
FOR IMPROVING GENERAL CONTROLS OVER
 THE AUTOMATED INFORMATION SYSTEM,
   ROYALTY MANAGEMENT PROGRAM,
    MINERALS MANAGEMENT SERVICE

              REPORT NO. 99-I-628
                  JULY 1999
                                                                     A-IN-MMS-001-98-M .


             United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                   Washington, DC. 20240




                                                           JUL - 9 1999


                                 AUDIT REPORT
Memorandum

To:        Assistant Secretary Land and Minerals Management

From:      Robert J. Williams
           Assistant Inspector

Subject:   Audit Report on Implementation of Recommendations for Improving General
           Controls Over the Automated Information System, Royalty Management
           Program, Minerals Management Service (No. 99-I-628 1

                                 INTRODUCTION
This report presents the results of our audit of implementation of the recommendations
contained in our March 1998 audit report titled “General Controls Over the Automated
Information System, Royalty Management Program, Minerals Management Service”
(No. 98-I-336). The objective of our current audit was to determine whether the Minerals
Management Service’s Royalty Management Program satisfactorily implemented the
recommendations made in our March 1998 report and whether any new recommendations
were warranted. This audit supports the Office of Inspector General’s opinion on the
financial statements of the Minerals Management Service by evaluating the reliability of the
general controls over computer-generated data that support the Royalty Management
Program’s portion of the financial statements.

BACKGROUND

The Minerals Management Service’s Royalty Management Program is responsible for
collecting and disbursing revenues of about $4 billion annually that are generated from
leasing Federal and Indian lands and for collecting royalties on minerals extracted from
leased lands. To aid in accomplishing its mission objectives and meeting its financial
reporting requirements, the Program uses an automated information system that includes a
mainframe computer, a minicomputer, and personal computers and servers which support
an enterprisewide network. ’ For collecting rents and royalties, the Program uses primarily
the mainframe computer. For disbursing rents and royalties, verifying collections, and
reporting financial information, the Program uses all of the components of its automated
information system. The Program’s automated information system was operated and
maintained by a contractor.

Overall system security policies for the Program are established by the Installation
Information Technology Security Manager, within the Program’s Systems Management ’
Division. The contractor is responsible for providing system security administration for the
mainframe computer, the minicomputers, and the enterprisewide network.

SCOPE OF AUDIT

This audit was conducted during September through November 1998 at the Royalty
Management Program’s Systems Management Division, located in Lakewood, Colorado.
The scope of our audit included an evaluation of the actions taken by Program management
to implement the 23 recommendations made in our March 1998 report and reviews of the
general controls in place during fiscal year 1998. To accomplish our objective, we
interviewed Program and contractor personnel, reviewed system documentation, and
reviewed and tested implementation of the recommendations contained in the March 1998
report.

The audit was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances.

As part of our audit, we evaluated the Program’s general controls over its automated
information system that could adversely affect the data processing environment. Because
of inherent limitations in any system of internal controls, losses, noncompliance, or
misstatements may occur and not be detected. We also caution that projecting our
evaluations to future periods is subject to the risk that controls or the degree of compliance
with the controls may diminish.

                                   RESULTS OF AUDIT
Regarding the March 1998 report’s 23 recommendations, we found that the Royalty
Management Program had satisfactorily implemented 20 recommendations. Three
recommendations (Nos. D. 1, D.2, and G. 1) were considered resolved but not implemented
based on actions to be taken by the Program. Appendix 2 lists all of the prior report’s



’ Servers are computers that provide senices to client computers on a network. Enterprisewide networks are
networks that result when all the networks in a single organization are connected. (Jerry Fitzgerald and Alan   .
Dennis, Business Data Communications and Networking, 5th edition, John Wiley & Sons, Inc., 1996.)

                                                      2
recommendations, the status of the recommendations, and actions taken to implement the
recommendations. The actions taken on the recommendations have improved the general
controls in the areas of security program, access controls, software development and change
management, separation of duties, system software controls. and service continuity.

To further strengthen the general controls, we found that improvements were needed in the
areas of access controls, security planning, and continuity of operations. Office of
Management and Budget circulars and National Institute of Standards and Technology
publications require Federal agencies to establish and implement computer security and
management and internal controls to improve the protection of sensitive information in the
computer systems of executive branch agencies. Program management did not ensure that
(1) computer security training was received by employees and contractor personnel and
access to computer processing was limited, (2) security plans were updated appropriately,
and (3) disaster recovery plans were developed in compliance with established criteria. As
a result, there was an increased risk of (1) unauthorized access to, modification of, and
disclosure of sensitive data; (2) ineffective security planning; and (3) loss of system
availability.

Overall, we identified four weaknesses and made four new recommendations for improving
general controls at the Program. We do not consider these weaknesses to be a material
weakness under provisions of the Federal Managers’ Financial Integrity Act. A summary
of the weaknesses in the areas of access controls, security planning, and continuity of
operations is provided in the paragraphs that follow, and the weaknesses and our respective
recommendations are detailed in Appendix 1.

Access Controls

We found weaknesses in access controls over the Program’s automated information system.
These weaknesses were in the areas ofcomputer security training and logical access controls
over computer processing. As a result, there was an increased risk that proprietary data
maintained on the automated information system were vulnerable to unauthorized disclosure
and manipulation, as well as an increased risk of disruption of service to users. We made
two recommendations to address these weaknesses.

Security Planning

We found a weakness in the development and maintenance of security plans for sensitive
systems. As a result, the security plans in place did not ensure that controls were established
to protect information processed, transmitted, or stored in the general support system,2 and
there was an increased risk that the most appropriate and effective controls would not be


‘Office ofManagement and Budget Circular A- 130, Appendix III, “Security ofFederal Automated Information
Resources,” defines a general support system or system to mean “an interconnected set of information
resources under the same direct management control which shares common functionality. A system normally
includes hardware, sofhvare, information. data. applications, communications, and people.”

                                                   3
identified and implemented by the Program. We made one recommendation to address this
weakness.

Continuity of Operations

We found that the communication networks, which n-ere part of the Program’s general
support system, were not included in the Program’s disaster recovery plans. As a result,
there was an increased risk that the communication nenvorks may not be recovered in the
event of a disaster. We made one recommendation to address this weakness.

Minerals Management Service Response and Office of Inspector General
Reply
In the May 25, 1999, response (Appendix 3) to our draft report from the Director, Minerals
Management Service, the Service concurred with the four recommendations. Based on the
response, we consider Recommendations A.1 and B.l resolved and implemented and
Recommendations C. 1 and D.l resolved but not implemented. Accordingly, the
unimplemented recommendations will be referred to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation (see Appendix 4).

Regarding our March 1998 report, the Service, in its May 1998 response, concurred with our
classification of the prior recommendations, and we considered 20 of the 23
recommendations resolved and implemented and the remaining 3 recommendations
(Nos. D. 1, D.2, and G. 1) resolved but not implemented. Accordingly, updated information
on the status of the three prior unimplemented recommendations will be forwarded to the
Assistant Secretary for Policy, Management and Budget (see Appendix 5).

Since the recommendations contained in this report are considered resolved, no further
response to the Office of Inspector General is required (see Appendix 4).

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued. actions taken to implement audit
recommendations, and identification of each significant recommendation on which corrective
action has not been taken.

We appreciate the assistance of Service personnel in the conduct of our audit.




                                            4
                                                                               APPENDIX 1
                                                                                Page 1 of 6

DETAILS OF WEAKNESSES AND RECOMMENDATIONS

ACCESS CONTROLS

A. Computer Security Training
Condition:     The Program’s policy that required periodic computer security training of
               employees and contractor personnel to reduce the risk of disclosure of
               proprietary data had not been effectively implemented. We statistically
               tested 49 of the 717 employees who had access to the server component of
               the automated information system. We found that 28 of the 49 employees
               had not received periodic training in the protection of proprietary data. From
               our test results, we projected that of the 717 employees, 410 employees had
               not been trained recently in the protection of proprietary data. In addition,
               Program management did not ensure that contractor personnel received such _
               training.

Criteria:      The Program’s policy regarding data protection states that the Royalty
               Management Program will “rely on employee training, clearances, and
               physical controls as its primary means ofprotecting proprietary information.”
               This policy also states that “all employees and contractors are required to
               protect proprietary information and receive periodic training regarding the
               protection of proprietary information.”

Cause:         There were no controls in place to ensure that employees and contractor
               personnel received the training specified by Program policy.

Effect: ’      Since training was one of the Program’s primary controls to protect against
               disclosure of proprietary data and this control had not been effectively
               implemented, there was an increased risk of unauthorized disclosure of
               proprietary data.

Recommendation:

We recommend that the Director, Minerals Management Service, implement procedures to
ensure that all employees and contractor personnel receive periodic training on the protection
of proprietary data as defined by Program policy.




                                              5
                                                                                            APPENDIX 1
                                                                                              Page 2 of 6

ACCESS CONTROLS

B. Access Controls Over Computer Processing

Condition:        Access controls over the processing performed on the mainframe computer
                  were inadequate. Specifically, we identified 171 individuals who had update
                  access to the emergency libraries. ’ Emergency libraries can contain changes *
                  to the production application programs that are used to process data to
                  determine the distribution of royalties. By running a program from the
                  emergency library, change control procedures are bypassed, and the risk is
                  increased that an inappropriate program would be run which could adversely
                  affect the Program’s data.

Criteria:         Office of Management and Budget Circular A-130, Appendix III, “Security
                  ofFederal Automated Information Resources,” requires agencies to establish
                  controls to ensure adequate security for all information processed,
                  transmitted, or stored in Federal automated information systems. The
                  Circular also requires agencies to implement and maintain a program to
                  ensure that adequate security is provided for all agency information collected,
                  processed, transmitted, stored, or disseminated in general support systems
                  and major applications. The Circular further defines “adequate security” as
                  “security commensurate with the risk and the magnitude ofthe harm resulting
                  from the loss, misuse, or unauthorized access to or modification of
                  information.” In addition, the current Program policy addressing data
                  protection states that the Program “applies the concept of ‘least privilege’ to .
                  protect the integrity of official records. Only those persons with the
                  responsibility for adding, deleting, or modifying records are given update
                  privileges.”

Cause:            Program security administration personnel had established a group within the
                  mainframe computer security software that included all Time Sharing Option’
                  (TSO) users and had given this group update access to the emergency


“‘A library is a collection of programs or data files for a particular purpose.” (Alan Freedman, The Commuter
Glossary, 4th edition. AMACOM Division of the American ,Management Association, 1989, p. 401.)

2Time Sharing Option is a software “that provides interactive communications for IBM’s MVS [Multiple
Virtual Storage] operating system. It allows a user or programmer to launch an application from a terminal
and interactively work with it.” MVS is the operating system used on IBM mainframes. “MVS is a batch
processing-oriented operating system that manages large amounts of memory and disk space. Online
operations are provided with CICS [Customer Information Control System], TSO and other system software.”
(Computer Desktop Encyclopedia, Version 9.4, 4th quarter, 1996, The Computer Language Company, Inc.)

                                                      6
                                                                                        APPENDIX 1
                                                                                          Page3of6 .

ACCESS CONTROLS

                 libraries, even though all users with access to TSO were not authorized to
                 perform updates to the emergency libraries. Although Program management
                 relied on reviews by personnel responsible for managing changes and updates
                 to the emergency libraries to detect any inappropriate activities, we believe
                 that a more effective control would have been to reduce the possibility of
                 inappropriate activities by limiting access.

Effect:          There was an increased risk that unauthorized changes to the mainframe
                 applications in the production environment could occur, which could result
                                        3
                 in possible corruption and loss of data, as well as disruption of service to
                 users. However, during our fieldwork, the Program eliminated the update
                 access to the emergency libraries that was provided to all TSO users.

Recommendation:

We recommend that the Director, Minerals Management Service, establish policies and
procedures to ensure that default accesses established in the automated information system
provide access only to authorized users requiring such access.




‘Corruption is the unauthorized altering of data or programs resulting in erroneous software logic. (Alan
Freedman, The Computer Glossary, 4th edition, AMACOM Division of the American Management
Association, 1989, p. 159.)
                                                                             APPENDIX 1
                                                                               Page 4 of 6

SECURITY PLANNING

C. Security Plans

Condition:   The security plans for sensitive systems referred to in the Program’s
             “Automated Information Systems Security Plan,” dated January 1998, did not
             reflect the current information technology environment at the Program.
             Specifically, the “IBM Security Plan” and the “DECNAX [Digital .
             Equipment Corporation/Virtual Address Extension] Security Plan” were
             dated 1996. The IBM plan did not reflect the hardware platform that was
             implemented in 1997. Further, both of the plans identified the Outer
             Continental Shelf Information System (OCSIS) as a source of production
             information, but OCSIS had been replaced by the Technical Information
             Management System. Also, the “RMP Desktop 1997 Security Plan”
             identified the Resource Access Control Facility (RACF) and the System
             Management Facility (SMF) as the audit and variance detection controls in
             place. However, both RACF and SMF were in place on the mainframe, but
             the Royalty Management (RMP) Desktop application was a client/server
             system, that used different audit and variance detection controls.

Criteria:    The Computer Security Act of 1987 requires the development of a security
             plan for each Federal computer system that contains sensitive information.
             The Act further states, “Such plan shall be revised annually as necessary.”
             Office of Management and Budget Circular A-130, Appendix III, “Security
             of Federal Automated Information Resources,” requires that security plans
             be developed for each general support system. In addition, the Departmental
             Manual (375 DM 19) requires that security plans be prepared for new or ’
             significantly changed systems.

Cause:       Program management updated only the plans that were referred to in the
             Program’s “Automated Information Systems Security Plan” every 3 years
             regardless of whether changes had occurred. In addition, Program
             management did not ensure that the Program’s security plans accurately
             reflected the security controls of the Program’s sensitive systems
             components.

Effect:      Security plans for the Program did not ensure that controls were established
             to protect information processed, transmitted, or stored in the general support
             system, and there was an increased risk that the most appropriate and
             effective general controls would not be identified and implemented by the
             Program. During our fieldwork, Program security management revised the
                                                                              APPENDIX 1
                                                                                Page 5 of 6


SECURITY PLANNING

               IBM plan, “Mainframe - 1998 Security Plan,” to reflect the current
               mainframe environment.

Recommendation:

We recommend that the Director, Minerals Management Service, ensure that security plans
which are referred to in the Program’s annual “Automated Information System Security
Plan” accurately reflect the controls in place and are updated to reflect significant changes
to the current information technology environment.




                                             9
                                                                            APPENDIX 1
                                                                              Page 6 of 6

CONTINUITY OF OPERATIONS

D. Disaster Recovery Plans

Condition:    Communication networks, which are part of the Program’s general support
              system, used by the Program’s divisions that maintain proprietary and
              financial data were not included in the Program’s disaster recovery plans.

Criteria:    Office of Management and Budget Circular A- 130 requires that the security
             plan for a general support system address continuity of operations. The .
             Circular states, “Agency plans should assure that there is an ability to recover
             and provide service sufficient to meet the minimal needs of users of the
             system. Manual procedures are generally NOT a viable back-up option.”

Cause:       Program management had not completed the Program’s disaster recovery
             plan for its communication network environment.

Effect:       If the disaster recovery plans are incomplete because components of the
              general support system are not included, personnel required to perform the
              disaster recovery procedures may not be able to recover critical systems in
              the event of a disaster or a system failure.

Recommendation:

We recommend that the Director, Minerals Management Service, ensure that disaster
recovery plans are developed for the general support system, including communication
networks necessary to maintain Program operations.




                                           10
                                                                                    APPENDIX 2
                                                                                     Page 1 of 8

            SUMMARY OF RECOMMENDATIONS AND
           CORRECTIVE ACTIONS FOR AUDIT REPORT
               “GENERAL CONTROLS OVER THE
             AUTOMATED INFORMATION SYSTEM,
              ROYALTY MANAGEMENT PROGRAM,
         MINERALS MANAGEMENT SERVICE” (No. 98-I-336)
                                                            Status of Recommendations
             Recommendations                                  and Corrective Actions


A. 1. Ensure that risk assessments are               Implemented. We found that the Royalty
conducted in accordance with guidelines              Management Program had implemented an
which recommend that risk assessments                enhanced risk assessment process which
support the acceptance of risk and the               should identifjl the significant risks
selection of appropriate controls.                   affecting the Program’s automated
Specifically, the assessments should                 information system, identify controls
address significant risks affecting systems,         implemented to mitigate those risks, and
appropriately identify controls                      formalize the acceptance of the residual    .
implemented to mitigate those risks, and             risk. We believe that establishment of this
formalize the acceptance of the residual             process meets the intent of the
risk.                                                recommendation.

A.2. Formally assign and communicate                 Implemented. The Program had
responsibility to local area network                 centralized the administration of its
administrators to participate in risk                networks and established a team to ensure
assessments and ensure compliance with               compliance with the Program’s policy
the Program’s security policy.                       regarding risk assessments.

A.3. Determine the risks associated with             Implemented. The Program had performed
local area network applications and                  an assessment of risks related to proprietary
personal computer databases which contain            data and its official financial records. As a
proprietary and financial data and, based on         result of the assessment, the official records
the results of the risk assessments, establish       had been moved from personal computer
appropriate security policies and                    databases to networks. Therefore, the
procedures.                                          proprietary and official financial records
                                                     are subject to the controls established for
                                                     the networks.




                                                 1
                                                                                  APPENDIX 2
                                                                                    Page 2 of 8


                                                           Status of Recommendations
             Recommendations                                 and Corrective Actions


B. 1. Evaluate Systems Management                   Implemented. The Program had evaluated
Division and contractor automated data              Systems Management Division and
processing (ADP) positions to determine             contractor ADP positions to determine
position sensitivity in relation to risk and        position sensitivity in relation to risk and
ADP factors. Also, assurance should be              ADP factors. Through the evaluation
provided that automated information                 process, the sensitivity levels of Systems     ,
system work is technically reviewed by              Management Division management and
persons whose position sensitivity levels           supervisory positions and contractor
are greater than the position sensitivity           management positions were increased.
levels of the employees who are
performing the work.




                                               12
                                                                                 APPENDIX 2
                                                                                   Page 3 of 8


                                                          Status of Recommendations                 .
            Recommendations                                 and Corrective Actions


B.2. Establish controls to ensure that the         Implemented. A process was implemented
contractor is fulfilling its contractual           in which the contractor provided a report
obligation of submitting requests for              containing the names of newly hired
background checks within the specified             personnel working on the Program’s
time frame and that contractor employees           contract, along with the submission status
who are in probationary status and awaiting        of the background check documentation.
security clearances are not performing             This report was used by the Program’s
critical ADP work.                                 security management and the Minerals
                                                   Management Service’s Personnel Division
                                                   to ensure compliance with contract
                                                   requirements regarding the submission of
                                                   background check documentation. Also,
                                                   the Program approved the contractor’s
                                                   implementation of a “pre-employment/pre-
                                                   assignment screening” process. This
                                                   process, which includes a criminal history   .
                                                   review, credit check, and a driving history
                                                   check, provides assurance to the Program
                                                   that the contractor’s potential employees
                                                   would receive the appropriate security
                                                   clearance. This procedure was
                                                   implemented in lieu of not allowing
                                                   contractor employees who are on
                                                   probationary status and awaiting their
                                                   security clearances to perform critical ADP
                                                   work because the time required to obtain a
                                                   security clearance is not cost beneficial to
                                                   the Program. We believe that the
                                                   contractor’s alternative “pre-
                                                   employment/pre-assignment screening”
                                                   process meets the intent of the
                                                   recommendation.




                                              13
                                                                                   APPENDIX 2
                                                                                     Page 4 of 8


                                                             Status of Recommendations
            Recommendations                                    and Corrective Actions


B.3. Establish controls to ensure that                Implemented. Program background check
personnel or security files accurately reflect        information was being tracked by the
that background checks and periodic                   Service’s Personnel Division for Program
followup background checks are performed              and contractor personnel instead of requests
as required.                                          for background checks being submitted
                                                      through the Program’s security personnel.
                                                      In addition, Program management had          .
                                                      taken action to submit required
                                                      documentation for periodic followup
                                                      background checks.

C. 1. Establish controls to enforce Program           Implemented. The controls were
policy that requires employees to sign                established and enforced.
security awareness statements before access
to system resources is approved by the
Installation Automated Information System
Security Officer.

D. 1. Ensure that individual computer                 Resolved; not implemented. Although
resources are classified based on the level           Program management did not agree with
of sensitivity associated with each resource.         the recommendation in its response to our
                                                      March 1998 audit report, we believe that
                                                      the Program’s risk management process
                                                      implemented under Recommendation A. 1
                                                      will require the Program to classify its
                                                      individual computer resources based on the .
                                                      level of sensitivity associated with each
                                                      resource. Therefore, we believe that
                                                      completion of the revised risk assessments,
                                                      which the Service said will occur by the
                                                      end of calendar year 1999 using the new
                                                      risk management process, will meet the
                                                      intent of the recommendation.




                                                 14
                                                                                   APPENDIX 2
                                                                                     Page 5 of 8


                                                           Status of Recommendations
            Recommendations                                  and Corrective Actions


D.2 Evaluate controls over resources to             Resolved; not implemented. Although
ensure that the access controls have been           Program management did not agree with
implemented commensurate with the level             the recommendation in its response to our
of risk and sensitivity associated with each        March 1998 audit report, we believe that
resource.                                           the Program’s risk management process
                                                    being implemented under Recommendation
                                                    A. 1 will require the Program to evaluate its
                                                    controls over its resources to ensure that the
                                                    access controls have been implemented
                                                    commensurate with the level of risk and
                                                    sensitivity associated with each resource.
                                                    Therefore, we believe that completion of
                                                    the revised risk assessments, which the
                                                    Service said will occur by the end of
                                                    calendar year 1999 using the new risk
                                                    management process, will meet the intent
                                                    of the recommendation.

E. 1. Implement controls to enforce                 Implemented. Program management
Program policy that default user                    issued a memorandum reaffirming the
identifications (IDS) and passwords are             Program’s policy, and a procedure
removed from the automated information              requiring assurance of deletion/revocation
system when commercial off-the-shelf                of the default password was implemented.
software is implemented.




                                               15
                                                                                  APPENDIX 2
                                                                                    Page 6 of 8


                                                           Status of Recommendations
            Recommendations                                  and Corrective Actions


F. 1. Evaluate the current Program policy           Implemented. The Program evaluated the
which recommends that passwords contain             current policy. As a result of the
a mix of letters and numbers for all                evaluation, the Program implemented a
automated information system components.            control within the mainframe environment
Implement, if the Program determines that           requiring the use of passwords containing a
a mix of letters and numbers should be              mix of letters and numbers.
required, the security software option
within RACF (Resource Access Control
Facility) that would enforce this
requirement. If the Program determines
that a mix of letters and numbers is not
required, the risk should be addressed in
the risk assessment.

F.2. Develop and implement centralized              Implemented. The Program consolidated
security administration for the local area          its servers and centralized security
networks used by the Program’s divisions            administration for its local area networks
that contain proprietary and financial data.        that contain proprietary or financi& data.

G. 1. Implement controls to ensure that             Partially implemented. The Program made
access managers approve all access to their         significant progress in completing its
applications in accordance with Program             review of user access levels; however, the
policy.                                             September 30, 1998, target date for
                                                    implementation of this recommendation
                                                    was changed to June 30, 1999.

G.2. Document procedures which require        Implemented. Procedures were
that users’ access levels be reviewed         documented, and the Program had begun to ’
periodically or that employees be             review user access levels cited in
recertified to ensure that the levels of      Recommendation G. 1.
access granted are appropriate for the duties
assigned to the users.




                                               16
                                                                                   APPENDIX 2
                                                                                     Page 7 of 8


                                                           Status of Recommendations
            Recommendations                                  and Corrective Actions


H. 1. Evaluate the need to deviate from the         Implemented. The Department’s Office of
Department of the Interior standard for the         Information Resources Management
number of unsuccessful log-in attempts. If          provided a waiver to the Program allowing
the Program determines that this number             the program to deviate from the standard
should remain at five, Program                      pertaining to the number of log-in attempts.
management should request, from the
Department, a waiver from the standard of
three attempts.

I. 1. Enforce procedures for authorizing,           Implemented. The Chief, Systems
approving, and testing client/server                Management Division, issued a
applications software before the software is        memorandum reinforcing the established
moved into production.                              procedures, and a monitoring officer was
                                                    designated to ensure compliance with the
                                                    standards on all new client/server projects.

J. 1. Implement controls to ensure that             Implemented. Controls were established to
application programmers do not have                 provide only temporary access in cases in
access to the production client/server              which application programmers need to      .
application data or the capability to               access production data and to promptly
update/change these data.                           terminate this access when it is no longer
                                                    required.

5.2. Improve detection controls by                  Implemented. Procedures were developed
ensuring that management or the                     and implemented requiring periodic
Installation Security Officer periodically          reviews of server security logs by security
reviews server security log files.                  administration personnel.


K. 1. Ensure that the upgraded version of           Implemented. The upgraded version of
RACF is implemented immediately if the              RACF was implemented.
Program is granted a waiver from
consolidating its mainframe operations
with another mainframe operation.




                                               17
                                                                                   APPENDIX 2
                                                                                     Page 8 of 8


                                                            Status of Recommendations
            Recommendations                                   and Corrective Actions


L. 1. Evaluate acquiring system verification         Implemented. The Program completed an             ’
and auditing software.                               evaluation of system verification and audit
                                                     software and purchased a software tool to
                                                     be used in its network environment that
                                                     would include the mainframe.

L.2. Implement the system options to                 Implemented. In fiscal year 1998, the
record activities in the system log                  Program implemented system options to
(SYSLOG) during the system initialization            record activities in the SYSLOG during the
process and develop and implement                    system initialization process and developed .
procedures to ensure that periodic reviews           and implemented procedures requiring
of the SYSLOG for unauthorized or                    periodic reviews of the SYSLOG for
inappropriate activities are performed and           unauthorized or inappropriate activities and
that unauthorized or inappropriate activities        requiring that such activities be reported to
are reported to Program management.                  Program management. However, during
                                                     this audit, we noted that the system logging
                                                     option was disabled. After we informed
                                                     Program management of this deficiency,
                                                     the system logging option was turned back
                                                     on.

L.3. Evaluate the available System                   Implemented. The Program performed an
Management Facility (SMF) record types               evaluation of the record types and
and implement procedures to ensure that              established procedures requiring periodic
critical SMF log files are reviewed                  reviews of those record types that were
periodically and that Program management             determined to be critical.
addresses the problems identified.

M. 1. Update the disaster recovery plans to          Implemented. Program management               .
include all mission-critical systems.                evaluated its systems and determined that
                                                     only those systems on the mainframe were
                                                     mission critical. The Program had a
                                                     disaster recovery plan in place to address
                                                     mainframe system recovery.




                                                18
                                                                                        APPENDIX 4


                      United States Department of the Interior
                                 MINERALSMANAGEMENTSERVICE
                                          Washington, DC 20240




                                                       1


                                            MAY 2-5’ I?99

Memorandum




From:


Subject:       Offke of Inspector General Draft AuVdit Report, “Implementation of
               Recommendations for Improving General Controls Over the Automated
               Information System, Royalty Management Program, Minerals Management
               Service” [A-IN-MkfS-OOl-98OM]

We appreciate the opportunity to respond to this draft report on our implementation of
recommendations to improve the general controls over our automated information system. As
outlined in your report, we have implemented 20 of the 23 recommendations and are in the
process of implementing the remaining 3 recommendations. We agree with the four additional
recommendations in this report and plan to implement them this year.

We’re sending you our general comments on the audit findings and specific ones on the
recommendations.

Please contact Bettine Montgomery at (202) 208-3976 if you have any further questions.



Attachment




                                                  19
.                                                                                            APPENDIX 4
    .                                                                                        P a g e 2 of 3



        * MINERALS MANAGEMENT SERVICE RESPONSE TO DRAFT AUDIT REPORT
          “IMPLEMENTATION OF RECOMMENDATIONS FOR IMPROVING GENERAL
               CONTROLS OVER THE AUTOMATED INFORMATION SYSTEM,
         ROYALTY MANAGEMENT PROGRAM, MINERALS MANAGEMENT SERVICE”

    Audit Agency: Office of Inspector General (OIG)

    Audit Number: A-IN-MMS-001-98-M

    We appreciate the opportunity to review this draft report summarizing OIG’s followup on the 23
    recommendations contained in its March 1998 audit report, “General Controls Over the
    Automated Information System, Royalty Management Program, Minerals Management Service.”
    We agree with the status shown for those recommendations. Twenty have been implemented,
    one will be implemented by June 1999, and the other two will be implemented via alternative
    approaches by the end of this calendar year. As explained in our response to the March 1998
    report, we do not agree with a number of the adverse conclusions on which the recommendations
    were based. However, we do agree that our implementation of these recommendations will
    improve our general controls.

    This draft report presents four additional recommendations to strengthen system access controls,
    security planning, and continuity of operations. We agree with each of these recommendations
    and are working to implement them as discussed below.

    Recommendation A 1. Implement procedures to ensure that all employees and contractor
    personnel receive periodic training on the protection ofproprieta y data as defined by Program
    policy.

    Agree. The Royalty Management Program (RYMP) has provided annual training in this area, but
    has not enforced attendance. Because staff turnover has been minimal, we believe most
    employees are fully aware of the proprietary information protection requirements. Nevertheless,
    RMP will provide mandatory security training, including training on the protection of proprietary
    data, during the fall of 1999 and at least biannually thereafter. Procedures to guide this training
    effort will be in place by June 30, 1999.

    Recommendation B 1. Establish policies and procedures to ensure that default accesses
    established in the automated information system provide access oniy to authorized users
    requiring such access.

    Agree. OIG noted that all Time Sharing Option (interactive) users had update access to the
    “emergency library” of programs which could possibly result in unauthorized changes to the


                                                    1



                                                    20
.                                                                                              APPENDIX 4
    .   .                                                                                      Page 3 of 3




        code. Our contractor’ s security personnel have already corrected this problem limiting such
        access to the few users who need it. Documented policy and procedures will be in place by
        May 31, 1999.

        Recommendation C 1. Ensure that security plans which are referred to in the Program ‘s annual
        Automated Information System Security Plan accurately reflect the controls in place and are
        updated to reflect significant changes to the current information technology environment.

        Agree. The security plans are being updated concurrently with various ongoing system changes
        such as conversion of RMP ’ s solid minerals production accounting programs to the mainfiarne
        environment. They will be completed and in place by October 1, 1999.

        Recommendation D 1. Ensure that disaster recovery plans are developedfor the general support
        system, including communication networks necessary to maintain Program operations.

        Agree. RhP is working with its operations and maintenance contractor to develop such plans
        which will be in place by September 30, 1999.

        The Chief, Systems Management Division, is responsible for implementing these
        recommendations.




                                                       2
                                                                            APPENDIX 4

       STATUS OF CURRENT AUDIT REPORT RECOMMENDATIONS

      Finding/Recommendation
              Reference                  Status                    Action Required


            A.1 and B.l        Implemented.                 No further action is required.   ’

            C.l and D.l        Resolved; not implemented.   No further response to the
                                                            Office of Inspector General is
‘rc
                                                            required. The
                                                            recommendations will be
                                                            referred to the Assistant
                                                            Secretary for Policy,
                                                            Management and Budget for
                                                            tracking of implementation.




                                              22
                                                                           APPENDIX 5

         STATUS OF PRIOR AUDIT REPORT RECOMMENDATIONS

     Finding/Recommendation
             Reference                  Status                    Action Required


     A.1, A.2, A.3, B.l, B.2, Implemented.                 No further action is required.
     B.3,C.l,E.l,F.l,F.2,G.2,
     H.l, 1.1, J.l, 5.2, K.l, L.l,
     L.2, L.3, and M.l
-.
     D.-l, D.2, and G.1       Resolved; not implemented.   No further response to the
                                                           Office of Inspector General is
                                                           required. The information
                                                           regarding the status of these
                                                           recommendations will be
                                                           provided to the Assistant
                                                           Secretary for Policy,
                                                           Management and Budget for
                                                           tracking of implementation.




                                             23
                        ILLEGAL OR WASTEFUL ACTIVITIES
                            SHOULD BE REPORTED TO
                       THE OFFICE OF INSPECTOR GENERAL


                                      Internet/E-Mail Address

                                           www.oig.doi.gov



                           Within the Continental United States

     U.S. Department of the Interior                         Our 24-hour
’    Office of Inspector General                             Telephone HOTLINE
     1849 C Street, N.W.                                     I-800-424-508 1 or
     Mail Stop 5341                                          (202) 208-5300
     Washington, D.C. 20240

                                                             TDD for hearing impaired
                                                             (202) 208-2420 or
                                                             1-800-354-0996


                          Outside the Continental United States

                                          Caribbean Region

    U.S. Department of the Interior                       (703) 235-9221
    office of Inspector General
    Eastern Division - Investigations
    4040 Fairfax Drive
    Suite 303
    Arlington, Virginia 22203

                                        North Pacify Region

    U.S. Department of the Interior                      (671) 647-6060
    ~ffke of Inspector General
    North Pacific Region
    415 Chalan San Antonio
    Baltej Pavilion, Suite 306
    Tamming, Guam 96911
  :      Toll Free Numbers:
    m:    I-800-424-5081
     :    TDD l-800-354-0996       E
  :                                5
  :                                5
  :      FlYVCommercial Numbers:
           (202) 208-5300
 a,1-     TDD (202) 208-2420       Ec


a
:        1849 C Street, N.W.       E
:        Mail Stop 5341            K
 3       Washington, D.C. 20240
 :
 :
 :
 :
 :
 :
 :
:-
 *
